                                                               Issue Date
                                                                    August 14, 2007
                                                               Audit Report Number
                                                                    2007-PH-1011




TO:        William D. Tamburrino, Director, Baltimore Public Housing Program Hub,
            3BPH



FROM:


SUBJECT:   The Housing Commission of Anne Arundel County, Glen Burnie, Maryland,
            Did Not Always Operate Its Housing Choice Voucher Program in Accordance
            with Federal Requirements

                                 HIGHLIGHTS

 What We Audited and Why

           We audited the Housing Commission of Anne Arundel County’s (Commission)
           housing choice voucher program (program) as part of our fiscal year 2007 audit
           plan. Our objective was to determine whether the Commission operated its
           program in accordance with HUD requirements and regulations.

 What We Found

           The Commission did not always operate its program in accordance with HUD
           requirements and regulations. It did not always ensure that its housing choice
           voucher housing stock met housing quality standards. Of the 61 housing choice
           voucher units statistically selected for inspection, 35 did not meet HUD’s housing
           quality standards and 30 had 117 material violations that existed on or before the
           Commission’s previous inspections. The Commission paid housing assistance of
           $116,522 for the 30 units with material violations. We estimated that over the
           next year, HUD will pay more than $2.1 million in housing assistance payments
           for units with material housing quality standards violations. The Commission
           also did not always properly perform rent reasonableness determinations for units
           it owned and, therefore, could not support housing assistance payments of
           $733,354. Lastly, the Commission did not properly administer its family self-
           sufficiency program and as a result, did not ensure that $215,293, which it paid to
           program participants, was proper.

What We Recommend

           We recommend that the director of HUD’s Baltimore Public Housing Program
           Hub require the Commission to reimburse its program from nonfederal funds for
           the improper use of $116,522 paid for 30 units with 117 material violations of
           housing quality standards, provide documentation or reimburse its program
           $733,354 from nonfederal funds for unsupported housing assistance payments,
           and $215,293 for improper escrow payments made to participatants of the family
           self-sufficentcy program. We also recommend that the director of HUD’s
           Baltimore Public Housing Program Hub require the Commission to ensure that
           program housing units inspected during the audit are repaired to meet HUD’s
           housing quality standards, and implement adequate procedures and controls to
           ensure that program units meet housing quality standards to prevent an estimated
           $2.1 million from being spent on units with material housing quality standards
           violations.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided our discussion draft audit report to the Commission’s executive
           director, its board chairman, and HUD staff during the audit. We held an exit
           conference with the Commission on June 19, 2007.

           We asked the Commission to provide comments on our discussion draft audit
           report by June 30, 2007. The Commission provided written comments to our
           draft report on June 29, 2007. The complete text of the Commission’s response,
           along with our evaluation of that response, can be found in appendix B of this
           report.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                        4

Results of Audit
      Finding 1: Controls over Housing Quality Standards Were Not Adequate       5
      Finding 2: The Commission Failed to Follow Federal Regulations Regarding
      Rent Reasonableness                                                        10
      Finding 3: The Commission Failed to Operate Its Family Self-Sufficiency
      Program in Accordance with Federal Requirements                            12

Scope and Methodology                                                            15

Internal Controls                                                                17

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use             19
   B. Auditee Comments and OIG’s Evaluation                                      20
   C. Federal Requirements                                                       34




                                             3
                      BACKGROUND AND OBJECTIVES

The Anne Arundel County Housing Commission was organized in 1968 and changed its name to
the Housing Commission of Anne Arundel County (Commission) in 1991. The Commission
serves as the public housing authority for Anne Arundel County. A 12-member board of
commissioners governs the Commission. Although the board of commissioners is responsible
for the overall condition of the public housing authority, its executive director is responsible for
coordinating established policy and carrying out its day-to-day operations. The board of
commissioners also serves as the board of directors for the Housing Corporation of Anne
Arundel County. The Housing Corporation of Anne Arundel County, a nonprofit subsidiary of
the public housing authority, was established in 1998 for use of nonpublic funds for housing
projects. The Housing Corporation of Anne Arundel County acts an agent on behalf of the
Commission and governs the administration and leasing of the Commission’s owned units.

The Commission administers a housing choice voucher program (program) funded by the U.S.
Department of Housing and Urban Development (HUD). The Commission provides assistance
to low- and moderate-income individuals seeking decent, safe, and sanitary housing by
subsidizing rents with owners of existing private housing. For fiscal year 2006, the Commission
received $13.5 million in housing choice voucher funds, and $963,829 in administrative fees to
administer the program. It issued an average of 1,455 housing choice vouchers for 2006.

Our audit objective was to determine whether the Commission operated its program in
accordance with HUD requirements. Specifically, we wanted to determine whether the
Commission issued subsidy payments for units that were decent, safe, and sanitary; properly
assessed rent reasonableness for public housing authority-owned units; and adequately
administered its family self-sufficiency program.




                                                 4
                                RESULTS OF AUDIT

Finding 1: Controls over Housing Quality Standards Were Not
Adequate
The Commission did not adequately enforce HUD’s housing quality standards. Of the 61
program units statistically selected for inspection, 35 did not meet minimum housing quality
standards. Thirty of 35 units had 117 material violations that existed before the Commission’s
previous inspections or were identified during the last inspection and were not corrected. These
material violations occurred because the Commission did not implement adequate procedures
and controls to ensure compliance with HUD regulations and its administrative plan. As a result,
program funds of $116,522 were used on units that were not decent, safe, and sanitary. Based on
our statistical sample, we estimated that over the next year, HUD would pay more than $2.1
million in housing assistance payments on units with material housing quality standards
violations.



 HUD’s Housing Quality
 Standards Were Not Met


              We statistically selected 61 units for inspection from the 580 program units the
              Commission inspected between July 31, 2006, and January 10, 2007. Our
              appraiser inspected the 61 units between February 20 and March 2, 2007, to
              determine whether the Authority ensured its program units met HUD’s housing
              quality standards.

              The audit identified 165 housing quality standards violations in 35 of the 61 units
              inspected (57 percent). In addition, 30 of the 35 units had 117 material violations
              that existed before the Authority’s previous inspections or were identified during
              the Commission’s last inspection. Thirty units were considered to be in material
              noncompliance since they had multiple material violations that predated the
              Commission’s last inspection but were not identified by the Commission’s
              inspector, had material 24-hour health and safety violations that predated the
              Commission’s last inspection, or material violations were on the last inspection
              report and the violation had not been corrected at the time of the HUD/OIG
              (Office of Inspector General) inspection. The Commission was provided
              $107,266 in housing assistance payments and $9,256 in associated administrative
              fees for these 30 units that materially failed to meet HUD’s housing quality
              standards. The following table categorizes the 165 housing quality standards
              violations in the 35 units.



                                               5
                                                           Number
                             Category of violations           of
                                                          violations
                        Electrical                            48
                        Stairs and porches                    28
                        Other interior hazards                11
                        Range/refrigerator                     9
                        Smoke detectors                        9
                        Security                               7
                        Window                                 7
                        Exterior surface                       7
                        Fire exits                             7
                        Floor                                  6
                        Wall                                   5
                        Ventilation/plumbing                   5
                        Evidence of infestation                3
                        Tub, shower, and/or sink               3
                        Toilet or wash basin                   3
                        Lead-based paint                       2
                        Site and neighborhood                  2
                        conditions
                        Roof/gutters                           1
                        Ceiling                                1
                        Space for preparation,
                        storage, and serving of food          1
                                    Total                    165

            We provided our inspection results to the Commission’s executive director on
            March 29, 2007, and to the director of HUD’s Baltimore Public Housing Program
            Hub on April 4, 2007.

Electrical Violations Were
Found


            Forty-eight electrical violations were present in 27 of the Commission’s program
            units inspected. The following items are examples of electrical violations listed in
            the table: outlets with open grounds, no cover on junction box, ground fault
            circuit interrupters do not trip, and loose wires. The following pictures are
            examples of the electrical-related violations identified in the Commission’s
            program units inspected.




                                             6
Unit #0005411: Internal
fixed cover on the fuse box
in the basement is missing.




Unit #0001575: Wall-
mounted lamp outside of
rear door is hanging from
its wires.




 Stairs and Porch Violations
 Were Found

                 Twenty-eight stairs and porch violations were present in 18 of the Commission’s
                 program units inspected. The following items are examples of stairs and porch
                 violations listed in the table: missing guardrail, missing handrail, deteriorated
                 handrail, and handrail too short. The following pictures are examples of the
                 stairs- and porch-related violations identified in the Commission’s program units
                 inspected.


                                                  7
Unit #005411: Front
porch needs railing on
open side.




Unit #0004762: The
stairway at the front is
missing a handrail.




  The Commission Did Not
  Implement Adequate
  Procedures and Controls

                   The violations occurred because the Commission did not implement adequate
                   procedures and controls to ensure compliance with HUD regulations and its
                   administrative plan. Regulations at 24 CFR [Code of Federal Regulations]
                   982.54(d) require the public housing authority’s administrative plan to cover
                   policies, procedural guidelines, and performance standards for conducting
                   required housing quality inspections. The audit showed that the Commission’s
                                                   8
             administrative plan sufficiently covered policies, procedural guidelines, and
             performance standards for conducting required housing quality inspections.
             However, the audit also showed that the Commission did not implement the
             policies and procedures contained in its own administrative plan.

Conclusion

             The Commission disbursed housing assistance payments for units that were in
             material noncompliance. In accordance with 24 CFR [Code of Federal
             Regulations] 982.152(d), HUD is permitted to reduce or offset any program
             administrative fees paid to a public housing authority if it fails to enforce HUD’s
             housing quality standards. The audit showed that the Commission was provided
             $107,266 in housing assistance payments and $9,256 in associated administrative
             fees for the 30 units that materially failed to meet HUD’s housing quality
             standards. In addition, if the Commission implements adequate procedures and
             controls over its unit inspections, we estimate that more than $2.1 million in future
             housing assistance payments will be spent for units that are decent, safe, and
             sanitary. We determined this amount by multiplying 227 units (estimate that would
             be in material noncompliance with housing quality standards if appropriate actions
             are not taken by the Commission) times $9,347 (average annual subsidy of each
             housing unit).

Recommendations

             We recommend that the director of HUD’s Baltimore Public Housing Program
             Hub require the Commission to

             1A.    Certify that the owners of the 35 program units cited in this finding repaired
                    the applicable housing quality standards violations.

             1B.    Reimburse HUD $116,522 from nonfederal funds ($107,266 for housing
                    assistance payments and $9,256 in associated administrative fees) for the
                    30 units that materially failed to meet HUD’s housing quality standards.

             1C.    Implement adequate procedures and controls to ensure that all units meet
                    HUD’s housing quality standards to prevent $2.1 million in program funds
                    from being spent on units that are in noncompliance with the standards.




                                               9
Finding 2: The Commission Failed to Follow Federal Regulations
Regarding Rent Reasonableness
The Commission did not follow federal regulations when determining rent reasonableness for its
own units. The Commission performed an internal market survey of rental units for its own units
and requested the independent entity to endorse the Commission’s results. The independent
entity did not perform any additional work to verify the Commission’s results, but certified that
proposed rents were reasonable. Because the independent entity’s determination of rent
reasonableness was not based on its own verification of data to support the rents, HUD has no
assurance that the $733,354 in rental payments for the Commission’s own program housing units
were appropriate.


 The Commission Did Not
 Administer Its Rent
 Reasonableness Determination
 in Accordance with HUD
 Regulations

              We reviewed the 39 program tenant files, from June 2002 through March 2007,
              for housing units owned by the Commission to determine whether the
              Commission properly performed its rent reasonableness certifications. The
              Commission has an agreement with the Howard County Housing Commission, as
              an independent entity, to provide it with an unbiased rental market survey and
              certify a reasonable rent payment to be used for its tenants. However, we found
              that rent for the 39 tenants were not based on the Howard County Housing
              Commission’s assessment of rent reasonableness. The Commission provided the
              Howard County Housing Commission with an internal market survey, which
              included a price comparison chart of unsubsidized rent payments in the
              surrounding area of its units as required of landlords requesting to participate in
              the program. It set its own unit rents by requesting the Howard County Housing
              Commission to endorse its market survey without conducting an independent
              market survey or using the Commission’s rent comparison database to verify
              proposed rents. From June 2002 through March 2007, the Commission received
              $733,354 in housing assistance payments for the 39 units.

 Conclusion


              The Commission did not adequately determine program reasonable rent payments
              or administer the rent reasonableness determination in accordance with HUD
              regulations and guidelines for its own units. The Commission paid housing
              assistance payments of $733,354 to itself without properly determining the
              reasonableness of the rents. These weaknesses occurred because the Commission
              lacked adequate procedures and controls concerning its rent reasonableness
                                               10
          assessment. The executive director stated that the Commission was unaware of
          HUD regulations stating that an independent agency had to perform the market
          rate survey. As a result, HUD has no assurance that appropriate rental payments
          were paid for the Commission’s own units for which it received program
          payments.

Recommendations


          We recommend that the director of HUD’s Baltimore Public Housing Program
          Hub require the Commission to

          2A.     Provide supporting documentation or reimburse HUD $733,354 from
                  nonfederal funds for the housing assistance payments related to the
                  Commission-owned units lacking independent rent reasonableness
                  determinations.

          2B.     Implement procedures and controls to ensure that housing assistance
                  payments contracts are executed only when an independent agency
                  performs an independent rent reasonableness certification of proposed
                  rents of Commission-owned units.




                                          11
Finding 3: The Commission Failed to Operate Its Family Self-
Sufficiency Program in Accordance with Federal Requirements
The Commission failed to operate its family self-sufficiency program in accordance with HUD
requirements and its family self-sufficiency program action plan. This noncompliance occurred
because the Commission failed to exercise proper supervision and oversight of its family self-
sufficiency program and lacked adequate procedures and controls to ensure that federal
requirements were appropriately met. As a result, the Commission paid $61,978 in early escrow
payments and an additional $153,315 in final escrow payments that are unsupported, and tenants
are not participating in the program according to HUD requirements.




 The Commission
 Inappropriately Paid $215,293
 in Escrow Payments

              The Commission inappropriately administered its family self-sufficiency program
              by failing to properly execute the contract of participation, complete the required
              forms, include individual training and service plans in the contract of
              participation, ensure that participants sought and maintained suitable employment,
              ensure that participants identified and met final goals, and ensure that participants
              met interim goals before being issued early escrow payments.

              The Commission paid 24 escrow payments of $215,293 to 20 participants of the
              family self-sufficiency program between February 2004 and December 2006. We
              reviewed the participants’ files to determine whether interim and/or final goals
              were accomplished before the issuance of escrow payments. The Commission
              could not provide the contract of participation and/or the individual training plans
              which identify the interim and final goals established for 17 participants issued
              escrow payments totaling $186,108. For the remaining three participants, support
              documentation revealed that the Commission paid escrow payments of $29,185 to
              participants who established final goals that were contrary to federal
              requirements.

              The United States Code, Title 42, chapter 8, subchapter I, subsection 1437u(c)(1),
              provides that each public housing agency carrying out a local program under this
              section shall enter into a contract with each leaseholder receiving assistance under
              the voucher program of the public housing agency that elects to participate in the
              self-sufficiency program under this section. The contract shall establish specific
              interim and final goals by which compliance with and performance of the contract
              may be measured and shall specify the resources and supportive services to be
              made available to the participating household.



                                               12
        According to 24 CFR [Code of Federal Regulations] 984.303, the head of the
        family self-sufficiency program household is required under the contract of
        participation to seek and maintain suitable employment during the term of the
        contract. The contract of participation also requires that the final goal list on the
        individual training plans of the head of the family include getting and maintaining
        suitable employment specific to that individual’s skills, education, and job
        training and the available job opportunities in the area.

        As earned income increases with employment, the escrow accounts are funded
        with a portion of the increases in the household’s rent because of increases in
        earned income and are credited to the escrow account in accordance with HUD
        requirements. Essentially, the escrow accounts are funded with program funds
        since the household’s portion of rent is not adjusted when the household’s income
        increases.

        According to 24 CFR [Code of Federal Regulations] 984.305(c)(2), to issue
        disbursements before completion of the program, the Commission must determine
        that the family self-sufficiency program household has fulfilled certain interim
        goals established in the contract of participation and needs a portion of the family
        self-sufficiency program account for purposes consistent with the contract of
        participation. As previously stated, the Commission failed to ensure that
        participants identified and met interim goals. Additionally, the Commission’s
        family self-sufficiency program contract, Loss of family self-sufficiency Account,
        states that the household will not receive the funds in its family self-sufficiency
        program escrow account if the household has not met its household
        responsibilities within the timeframe specified as stated in the contract. The
        Commission could not provide documentation showing that it appropriately paid
        $293,275 from escrow accounts to program participants.

Participation Is Not in
Accordance with Requirements


        We reviewed 91 tenant files for the current participants in the family self-
        sufficiency program. None of the files contained the family assessments required
        by the Commission’s action plan, 69 files did not contain a final goal of
        maintaining and seeking employment, 16 files did not have an individual training
        plan, and nine files contained two-year extensions without written requests from
        the participant.

        The Commission failed to demonstrate that it achieved the objectives of the
        family self-sufficiency program which are to establish working partnerships that
        will use available resources to assure families’ maximum use and minimize any
        possible duplication; address service issues that result as barriers to families
        becoming economically self-sufficient; provide families with a service plan
        execution that respects families and is based on family strengths, needs, and

                                         13
             realistic outcomes; implement a case management system that will encourage and
             support families to become self-sufficient; and provide ongoing evaluation to
             address program effectiveness.

The Deficiencies Were Caused
by a Lack of Supervision and
Oversight


             These weaknesses occurred because the Commission failed to exercise proper
             supervision and oversight of its program. The Commission lacked adequate
             procedures and controls to ensure that federal requirements were appropriately
             followed. Its family self-sufficiency program coordinator performed additional
             duties and responsibilities; thereby limiting the amount of time spent overseeing
             the program. Although the Commission received $97,505 in grant funding for
             2003 and 2004, it did not receive grant funding for the family self-sufficiency
             program coordinator from HUD for fiscal years 2005 and 2006, thereby reducing
             supporting funds to maintain the program.

Conclusion

             The Commission improperly used funds from its family self-sufficiency program
             when it failed to comply with federal and its own requirements and it did not
             ensure that tenants participated in the program according to requirements. The
             Commission’s failure to maintain sufficient documentation and ensure that
             program requirements were followed prohibited us from determining whether the
             family self-sufficiency program was meeting its goal of enabling households to
             become economically self-sufficient and increases the likelihood of inappropriate
             households receiving payments. It also reduces the ability to monitor and
             measure the effectiveness of the family self-sufficiency program. As a result of
             its noncompliance, the Commission inappropriately paid escrow payments.

Recommendations

             We recommend that the director of HUD’s Baltimore Public Housing Program
             Hub require the Commission to

             3A.    Provide supporting documentation or reimburse HUD $215,293 from
                    nonfederal funds for escrow payments issued without proper supporting
                    documentation.

             3B.    Implement procedures and controls over its family self-sufficiency program
                    to ensure that it follows federal requirements and its HUD-approved action
                    plan.

                                             14
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

   •   Applicable laws; regulations; the Commission’s program administrative plan, effective
       April 2004 and April 2006; HUD’s program requirements at 24 CFR [Code of Federal
       Regulations] 982 and 984; and HUD’s Housing Choice Voucher Guidebook 7420.10.

   •   The Commission’s accounting records; annual audited financial statements for 2003, 2004,
       and 2005; general ledgers; checks; tenant files; computerized databases; policies and
       procedures; board meeting minutes for 2004 through 2006; and organizational chart.

   •   HUD’s files for the Commission.

We also interviewed the Commission’s employees and HUD staff.

To achieve our audit objectives, we relied in part on computer-processed data in the
Commission’s database. Although we did not perform a detailed assessment of the reliability of
the data, we did perform a minimal level of testing and found the data to be adequate for our
purposes.

We statistically selected 61 of the Commission’s program units to inspect, using the U.S. Army
Audit Agency’s Statistical Sampling software, from the 580 units that were inspected by the
Commission from July 31, 2006, through January 10, 2007. The 61 units were selected to
determine whether the Commission ensured that its program units met HUD’s housing quality
standards. Our sampling criteria used a 90 percent confidence level, 50 percent estimated error
rate, and precision of plus or minus 10 percent.

Our sampling results determined that 30 of 61 units (49 percent) materially failed to meet HUD’s
housing quality standards. Materiality was determined by using multiple material violations that
predated the Commission's last inspection but were not identified by the Commission’s
inspector; had 24-hour health and safety violations that predated the Commission’s last
inspection; or were on the last inspection report and the material violation had not been corrected
at the time of the HUD/OIG inspection.

Based upon our sample size of 61 from a total population of 580, we estimate that 49.18 percent
(286) of the population materially failed housing quality inspections. The sampling error is plus
or minus 9.96 percent. We are 90 percent confident that the frequency of occurrence of Section
8 units materially failing housing quality standards inspections lies between 39.22 and 59.14
percent of the population. This equates to an occurrence of between 227 and 343 units of the
580 units of the population.

The Commission’s 2006 housing assistance payments registers showed that the average annual
housing assistance payment was $9,347. Using the lower limit of the estimate of the number of
units and the average housing assistance payment, we estimated that the Commission will
                                                15
annually spend $2,121,769 (227 units times $9,347 annual average payment) for units that are in
material noncompliance with HUD’s housing quality standards. While these benefits would
recur indefinitely, we were conservative in our approach and only included the initial year in our
estimate. We also considered that the Commission did not identify many of the preexisting
violations during its most recent inspections.

We performed our on-site audit work between August 2006 and March 2007 at the
Commission’s central office located at 7477 Baltimore-Annapolis Boulevard, Glen Burnie,
Maryland. The audit covered the period from July 1, 2004, through June 30, 2006, but was
expanded when necessary to include other periods.

We performed our audit in accordance with generally accepted government auditing standards.




                                                16
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our objective:

              •   Program operations – Policies and procedures that management has
                  implemented to reasonably ensure that a program meets its objectives.

              •   Validity and reliability of data – Policies and procedures that management has
                  implemented to reasonably ensure that valid and reliable data are obtained,
                  maintained, and fairly disclosed in reports.

              •   Compliance with laws and regulations – Policies and procedures that
                  management has implemented to reasonably ensure that resource use is
                  consistent with laws and regulations.

              •   Safeguarding resources – Policies and procedures that management has
                  implemented to reasonably ensure that resources are safeguarded against
                  waste, loss, and misuse.

              We assessed the relevant controls identified above.

 Significant Weaknesses


              It is a significant weakness if internal controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet an organization's objectives.
              Based on our review, we believe the following item is a significant weakness:
                                               17
•   The Commission lacked sufficient procedures and controls to ensure
    compliance with HUD regulations regarding unit inspections, rent
    reasonableness of its own units, and family self-sufficiency program
    requirements (see findings 1, 2, and 3).




                                18
                                    APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

          Recommendation                                               Funds to be put
              number             Ineligible 1/        Unsupported 2/    to better use 3/
                  1B                $116,522
                  1C                                                       $2,121,769
                  2A                                        $733,354
                  3A                                        $215,293
                 Total              $116,522                $948,647       $2,121,769




1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an HUD/OIG recommendation is implemented. This includes
     reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
     incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings which are specifically
     identified. In this instance, if the Commission implements our recommendation, it will
     cease to incur program costs for units that are not decent, safe, and sanitary and, instead,
     will expend those funds for units that meet HUD’s standards. Once the Commission
     successfully improves its controls, this will be a recurring benefit. Our estimate reflects
     only the initial year of this benefit.




                                                 19
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         20
Comment 1, 2




Comment 1


Comment 2




               21
Comment 2




Comment 3




            22
Comment 3




Comment 4




Comment 3



Comment 5



Comment 6




            23
Comment 7




Comment 8




            24
Comment 9




Comment 10




Comment 11




             25
Comment 12


Comment 13




             26
Comment 14




Comment 15




Comment 16




             27
Comment 17




Comment 18




             28
Comment 19




Comment 2




             29
                           OIG Evaluation of Auditee Comments


Comment 1 We performed this audit as part of our fiscal year 2007 audit plan. Our decision to
          perform the audit survey was based on risk factors such as the results of HUD’s
          voucher management system review, the fact that the Commission received a
          large amount of HUD funding, and the fact that the program has not been audited
          in over 10 years. We apologize for any misunderstanding we may have
          inadvertently communicated during the audit.

Comment 2 The Commission’s description of our audit scope and methodology is not
          accurate. We performed the audit in accordance with generally accepted
          government auditing standards (GAGAS). The audit team collectively possessed
          adequate professional proficiency for the tasks required and was properly
          supervised. Audit conclusions contained in this audit report are supported by
          relevant and substantial evidence documented in our audit workpapers. In
          accordance with GAGAS we used the audit survey to identify areas of materiality
          and sensitivity; identify key aspects and features of the Commission and disclose
          controls and areas that could be susceptible to error, illegal acts, or abuse.

              The results of our survey work were used to narrow the scope of the audit work to
              be performed, and develop an audit program. The results of the survey indicated
              that the Commission’s internal controls were weak and needed improvement in
              the areas of housing quality inspections, housing assistance payments, family self-
              sufficiency activities, and rent reasonableness. We did not identify material
              weaknesses within the areas of tenant eligibility, income verification, and
              portability and therefore we did not review these areas during the audit phase of
              this engagement.

Comment 3     The sample selection method that we used showed a fair representation of the
              Commission’s housing choice voucher housing stock. We performed a statistical
              sample with a random number selection of units that have been inspected by the
              Commission and passed inspection within six months from the time the data was
              requested from the Commission. Additionally, our certified HUD inspector made
              a professional determination on whether a violation predated the last inspection
              conducted by the Commission. He used his professional knowledge, tenant
              interviews, and the Commission’s latest inspection reports in determining whether
              a housing quality standard violation was in existence prior to the last inspection
              conducted by the Commission. For example, when our inspector tested the
              ground fault circuit interrupters with his circuit tester, they did not trip. When a
              ground fault circuit interrupter does not trip and stays on, it is because it was
              improperly wired. Improper wiring would have occurred when the ground fault
              circuit interrupter was first installed, thus a preexisting condition.

Comment 4     We reviewed the affidavits the Commission provided to us at the end of the audit
              and determined that they were insufficient evidence to adjust our conclusions.

                                               30
              The affidavits were a form letter generated by the Commission with a signature
              block for the tenant to sign and date. The affidavits we received did not address
              the specific violations that the audit determined were preexisting conditions.
              Further, we were not given an opportunity to evaluate the methodology the
              Commission used to obtain the affidavits from its Section 8 tenants.

Comment 5     Regulations at 24 CFR [Code of Federal Regulations] 404 (a)(3) require that if a
              violation is life threatening, the violation must be corrected within 24 hours.
              Therefore, we notified the Commission of potentially life threatening conditions
              that existed at the units we inspected for immediate correction.

Comment 6 We are concerned the Commission does not consider malfunctioning stoves and
          double keyed dead bolts serious problems which need to be quickly corrected. A
          gas stove burner that is malfunctioning is an immediate hazard to leaks causing
          explosion, fire, and death. The double keyed dead bolted door violations were at
          egresses. A double keyed dead bolt is a dead bolt lock that requires a key to enter
          and exit. The national fire code, Life Safety Code Handbook, ninth edition,
          24.2.4.7 states no door in any means of escape shall be locked against egress
          when the building is occupied. All locking devices that impede or prohibit egress
          shall be prohibited.

Comment 7     As a more conservative estimate, we reduced the ineligible dollars that we
              reported in recommendation 1B in the final report to reflect the 30-day grace
              period the Commission allows for its owners to make repairs.

Comment 8     Based on the Commission’s response we changed the wording in the final report
              to state that it requested the independent entity to endorse the Commission’s
              results rather then required it to do so. However, the fact remains that since the
              independent entity’s determination of rent reasonableness was not based on its
              own verification of data to support the rents, HUD has no assurance that the
              $733,354 in rental payments for the Commission’s own program housing units
              were appropriate.

Comment 9     We agree that since units in each building are of equal value and size that only
              one unit in each building needs to have rent reasonableness determined annually.
              The improper rent reasonableness on the two units was the basis for the subsidy
              paid to all units in the two complexes. Therefore, the rents on all units are
              questioned and if not supported must be repaid.

Comment 10 We were in fact previously encouraged by the fact that the Commission sent out a
           memorandum during the audit, dated January 16, 2007, stating that the Howard
           County Housing Commission will perform an independent market analysis of rent
           reasonableness for the Commission’s own program units without using
           comparables provided by the Commission. However, the Commission now
           indicates in its reply that it initiated this action simply to satisfy the OIG and not
           to gain compliance with HUD requirements. We therefore removed the statement

                                               31
               from the report. Given the Commission’s reply however, we believe it should be
               periodically monitored to ensure continued compliance with this requirement.

Comment 11 Responsible officials did in fact inform us during the audit that they certified rent
           was reasonable without independently reviewing rent reasonableness. They stated
           they did so because they did not have access to the Commission’s database.

Comment 12 Our audit recommendation is in this report and was discussed at the exit
           conference. We have recommended that the Commission implement procedures
           and controls to ensure that housing assistance payments contracts are executed
           only when an independent agency performs an independent rent reasonableness
           certification of proposed rents of Commission-owned units. The Commission is
           ultimately responsible for ensuring the integrity of this process and the
           reasonableness of its rents.

Comment 13 The Commission incorrectly asserts that a Rental Integrity Review performed in
           2003 in which HUD reviewed one file of a project-based unit negates our audit
           findings. We disagree as we performed our audit in accordance with generally
           accepted government auditing standards with a much broader scope of review. In
           addition to our broader scope, we reviewed in much greater detail and were able
           to spend significantly more time than HUD staff is able to spend during its
           review.

Comment 14 We have updated the report to reflect additional information and documentation
           provide by the Commission. The report now states that the Commission paid 24
           escrow payments of $215,293 to 20 participants of the family self-sufficiency
           program between February 2004 and December 2006.

Comment 15 We have adjusted the report to reflect the unsupported disbursement made within
           the last three years. During the audit we requested all participants’ contract of
           participation and individual training plans to determine whether the Commission
           followed HUD requirements. The documentation and support provided by the
           Commission was insufficient evidence to ensure the Commission appropriately
           issued federal funds according to HUD requirements. The Commission is
           required to maintain documentation for at least three years after the individual or
           family has completed the program.

Comment 16 We reviewed the Commission’s family self-sufficiency activities according to the
           Code of Federal Regulations and the contract of participation. The Contract is
           signed by both the participant and the Commission’s representative. Federal
           regulations require that each participant identify via the contract of participation a
           final goal. The contract states the final goal must include getting and maintaining
           suitable employment specific to the individual skills, education, job, and training
           received. The Commission did not abide by the Code of Federal Regulations, the
           contract of participation, or its own family self-sufficiency action plan which are
           requirements not guidelines. It cannot be determined that the participants of the

                                               32
              Commission’s family self-sufficiency program met federal regulations and the
              contract of participation since sufficient documentation has not been provided by
              the Commission. Unless the Commission can provide sufficient documentation to
              support payments made to participants the Commission inappropriately disbursed
              federal funds which will need to be reimbursed to HUD.

Comment 17 The Commission received two family self-sufficiency grants totaling $97,505 for
           fiscal years 2003 and 2004. These grants were to be used for a family self-
           sufficiency coordinator. The Commission had not received family self-
           sufficiency grants since 2004. We determined through interviews of family self-
           sufficiency program staff that there was no proper oversight and supervision.

Comment 18 We were aware of the Commission’s family self-sufficiency database and we
           interviewed the family self-sufficiency staff concerning the computerized data for
           the program. During our review, the database did not contain sufficient
           supporting documentation such as the contract of participation, the individual
           training plans, participant assessments, and the participants’ applications.

Comment 19 We determined that there are significant weaknesses within the Commission’s
           housing choice voucher program in the areas of housing quality standard
           inspections, rent reasonableness procedures, and the family self-sufficiency
           program. Significant weaknesses exist if management controls do not provide
           reasonable assurance that the process for planning, organizing, directing, and
           controlling program operations will meet the organization’s objective.




                                             33
Appendix C

                           FEDERAL REQUIREMENTS

Finding 1

HUD regulations at 24 CFR [Code of Federal Regulations] 982.152(d) state that HUD may
reduce or offset any administrative fee to a public housing authority, in the amount determined
by HUD, if the authority fails to perform its administrative responsibilities correctly or
adequately under the program, such as not enforcing HUD’s housing quality standards.

HUD regulations at 24 CFR [Code of Federal Regulations] 982.305(a) state that the public
housing authority may not give approval for the family of the assisted tenancy or execute a
housing assistance contract until the authority has determined that all the following meet
program requirements: the unit is eligible, and the unit has been inspected by the authority and
passes HUD’s housing quality standards.

HUD regulations at 24 CFR [Code of Federal Regulations] 982.401 require that all program
housing must meet HUD’s housing quality standards performance requirements both at
commencement of assisted occupancy and throughout the tenancy.

HUD regulations at 24 CFR [Code of Federal Regulations] 982.404 require owners of program
units to maintain the units in accordance with HUD’s housing quality standards. If the owner
fails to maintain the dwelling unit in accordance with HUD’s housing quality standards, the
authority must take prompt and vigorous action to enforce the owner’s obligations. The
authority’s remedies for such breach of the housing quality standards include termination,
suspension, or reduction of housing assistance payments and termination of the housing
assistance payments contract. The authority must not make any housing assistance payments for
a dwelling unit that fails to meet the housing quality standards unless the owner corrects the
defect within the period specified by the authority and the authority verifies the correction. If a
defect is life threatening, the owner must correct the defect within 24 hours. For other defects,
the owner must correct them within 30 calendar days.

Finding 2

HUD regulations at 24 CFR [Code of Federal Regulations] 982.152(d) state that HUD may
reduce or offset any administrative fees to a public housing authority, in the amount determined
by HUD, if the public housing authority fails to perform its administrative responsibilities
correctly or adequately under the program.

HUD regulations at 24 CFR [Code of Federal Regulations] 982.204(b) state that a public
housing authority must use a single waiting lists for admission to its program.



                                                34
HUD regulations at 24 CFR [Code of Federal Regulations] 982.305(a) state that the public
housing authority may not execute a housing assistance payments contract until the public
housing authority has determined that all of the following meet program requirements: (4) rent
to owner is reasonable. Subparagraph (c) states that the public housing authority may not pay
any housing assistance payments to the owner until the housing assistance payments contract has
been executed.

Finding 3

HUD regulations at 24 CFR [Code of Federal Regulations] 984.102 state that under the family
self-sufficiency program, low-income households are provided opportunities for education, job
training, counseling, and other forms of social service assistance so they may obtain the
education, employment, and business and social skills necessary to achieve self-sufficiency.

HUD regulations at 24 CFR [Code of Federal Regulations] 984.103 state that the contract of
participation includes all individual training and service plans entered into between the public
housing authority and all members of the household who will participate in the family self-
sufficiency program and which plans are attached to the contract of participation as exhibits.

HUD regulations at 24 CFR [Code of Federal Regulations] 984.303(f) state that modifications to
the contract of participation may be modified in writing with respect to the training and service
plans.

United States Code, Title 42, chapter 8, subchapter I, subsection 1437u(a), states that the purpose
of the family self-sufficiency program established under this section is to promote the
development of local strategies to coordinate use of public housing and assistance under the
certificate and voucher programs under section 1437f of this title with public and private
resources to enable eligible households to achieve economic and self-sufficiency.

HUD’s family self-sufficiency program contract of participation (contract), Withdrawal of Funds
from the Family Self-Sufficiency Escrow Account, states that the housing authority may permit
the household to withdraw funds from the family self-sufficiency program escrow account before
completion of the contract if the household has completed specific interim goals, designated by
the housing authority, and needs some of the family self-sufficiency program escrow account
funds to complete the contract. The housing authority will pay the head of the household the
amount in the household’s escrow account when the housing authority determines that the
household has completed this contract.

The contract, Loss of Family Self-Sufficiency Account, states that the household will not receive
the funds in its family self-sufficiency program escrow account if (3) the household has not met
its household responsibilities within the time specified as stated in the contract.

The contract, Housing Authority Responsibilities, states that the Authority will determine
whether the household has completed the contract and pay the household the amount in the
family self-sufficiency program escrow account if the household has completed the contract and


                                                35
the head of the household has provided written certification that no member of the household is
receiving welfare assistance.

The contract, Resources and Supportive Services, states that the Authority will try to provide the
resources and supportive services listed in the individual training and services plan. If the
resources and services are not available, the Authority will try to substitute other resources and
services. However, the Authority has no liability to the household if the resources and services
are not provided.

The contract, Individual Training and Service Plans, states that the contract must include an
individual training and services plan for the head of the household. The final goal listed on the
individual training and service plan of the head of the household must include getting and
maintaining suitable employment specific to that individual's skills, education, and job training
and the available job opportunities in the area.

The contract states that all household members receiving welfare assistance must become
independent of welfare assistance for at least 12 months before the contract expires.

The contract, Changes to the Contract, states that any change(s) to an individual training and
service plan must be included as a revision to the individual training and service plan
(attachment) to which the change applies. The revision must include the item changed,
signatures of the participant and an Authority representative, and the date signed.




                                                36
